<html>
<title> - H.R. 1161 AND H.R. 1384</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 1161 AND H.R. 1384

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                              May 8, 2001
                               __________

                           Serial No. 107-25
                               __________

           Printed for the use of the Committee on Resources











 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov





                        U.S. GOVERNMENT PRINTING OFFICE
72-230                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. "Billy" Tauzin, Louisiana       Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. "Butch" Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                    JOEL HEFLEY, Colorado, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
Wayne T. Gilchrest, Maryland             Samoa
George Radanovich, California        Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 8, 2001......................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate to Congress from the 
      Virgin Islands.............................................     8
    Gilman, Hon. Benjamin, a Representative in Congress from the 
      State of New York..........................................    11
        Prepared statement on H.R. 1161..........................    11
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement on H.R. 1161 and H.R. 1384............     2
        Pictures and map submitted for the record................     3
    Udall, Hon. Tom, a Representative in Congress from the State 
      of New Mexico..............................................     8
        Prepared statement of....................................    10

Statement of Witnesses:
    Cerny, Milton, President, American Friends of the Czech 
      Republic, Washington, DC...................................    23
        Prepared statement on H.R. 1161..........................    25
        Letter from His Excellency Vaclav Havel, President of the 
          Czech Republic, dated May 4, 2001 submitted for the 
          record.................................................    27
        Letter from His Excellency Alexandr Vondra, Ambassador, 
          The Czech Republic, dated May 4, 2001 submitted for the 
          record.................................................    28
    Novak, Michael, George Frederick Jewett Chair in Religion and 
      Public Policy, American Enterprise Institute, Washington, 
      DC.........................................................    29
        Prepared statement on H.R.1161...........................    30
    Parsons, John G., Associate Regional Director for Lands, 
      Resources and Planning, National Capital Region, National 
      Park Service, U.S. Department of the Interior, Washington, 
      DC.........................................................    13
        Prepared statement on H.R. 1161..........................    16
        Prepared statement on H.R. 1384..........................    17
        Letter from the Department of the Interior dated May 4, 
          2001 submitted for the record..........................    19
    Trujillo, Arvin, Director, Division of Natural Resources, 
      Navajo Nation, Window Rock, AZ.............................    34
        Prepared statement on H.R. 1384..........................    35












 H.R. 1161, TO AUTHORIZE THE AMERICAN FRIENDS OF THE CZECH REPUBLIC TO 
   ESTABLISH A MEMORIAL TO HONOR TOMAS G. MASARYK IN THE DISTRICT OF 
  COLUMBIA; AND H.R. 1384, TO AMEND THE NATIONAL TRAILS SYSTEM ACT TO 
DESIGNATE THE NAVAJO LONG WALK TO BOSQUE REDONDO AS A NATIONAL HISTORIC 
                                 TRAIL.

                              ----------                              


                          Tuesday, May 8, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 1334, Longworth House Office Building, Hon. Joel Hefley 
[Chairman of the Subcommittee] presiding.

  STATEMENT OF THE HONORABLE JOEL HEFLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Hefley. The Committee will come to order. Welcome to 
the hearing today. This morning the Subcommittee on National 
Parks, Recreation and Public Lands will hear testimony on two 
bills, H.R. 1161 and H.R. 1384.
    Mr. Hefley. The first bill, H.R. 1161 was introduced by 
Congressman Gilman of New York. This bill would authorize the 
American Friends of the Czech Republic to establish a memorial 
to honor Tomas Garrigue Masaryk, the first President of 
Czechoslovakia, on Federal land in the District of Columbia. 
This bill identifies a specific spot near the World Bank where 
the memorial would be located. This site is near the hotel 
where Mr. Masaryk resided while he lived in Washington. The 
bill also specifies that the memorial would be in compliance 
with the Commemorative Works Act.
    The second bill, H.R. 1384, was introduced by Congressman 
Tom Udall of New Mexico. This bill would amend the National 
Trails System Act to designate the Navajo Long Walk to Bosque 
Redondo as a national historic trail. The trail traces the 
route that thousands of Navajo Indians followed on their forced 
march known as the Long Walk from northern Arizona to southern 
New Mexico.
    I am aware that the administration has a few concerns with 
both of these bills, and I would like to work with the 
Minority, the Park Service and both Mr. Udall and Mr. Gilman in 
order to resolve these concerns.
    With that, I would like to thank all of our witnesses for 
being here today, including Congressman Udall, and we assume 
Congressman Gilman will be here shortly to testify on these 
bills, and now I would turn the time over to our Ranking Member 
Mrs. Christensen.
    [The prepared statement of Mr. Hefley follows:]

   Statement of The Honorable Joel Hefley, Chairman, Subcommittee on 
              National Parks, Recreation and Public Lands

    Good morning and welcome to the hearing today. This morning, the 
Subcommittee on National Parks, Recreation and Public Lands will hear 
testimony on two bills, H.R. 1161 and H.R. 1384.
    The first bill, H.R. 1161, was introduced by Congressman Ben Gilman 
of New York. This bill would authorize the American Friends of the 
Czech Republic to establish a memorial to honor Tomas Garrigue Masaryk, 
the first president of Czechoslovakia, on Federal land in the District 
of Columbia. This bill identifies a specific spot near the World Bank 
where the memorial would be located. This site is near the hotel where 
Mr. Masaryk formerly resided while he lived in Washington. The bill 
also specifies that the memorial would be in compliance with the 
Commemorative Works Act.
    The second bill, H.R. 1384, was introduced by Congressman Tom Udall 
of New Mexico. This bill would amend the National Trails System Act to 
designate the Navajo Long Walk to Bosque Redondo as a national historic 
trail. The trail traces the route that thousands of Navajo Indians 
followed on their forced march, known as the ``Long Walk'', from 
northern Arizona to southern New Mexico.
    I am aware that the Administration has a few concerns with both of 
these bills and I would like to work with the Minority, the Park 
Service, and both Mr. Udall and Mr. Gilman in order to resolve those 
concerns.
    With that, I'd like to thank all of our witnesses for being here 
today, including Congressmen Udall and Gilman, to testify on these 
bills and now turn the time over to the Ranking Member, Ms. 
Christensen.
                                 ______
                                 
    [Pictures and a map submitted for the record follow:]
    [GRAPHIC] [TIFF OMITTED] T2230.006
    
                            Tomas G. Masaryk
[GRAPHIC] [TIFF OMITTED] T2230.007

                  Memorial Statue of Tomas G. Masaryk
[GRAPHIC] [TIFF OMITTED] T2230.008

[GRAPHIC] [TIFF OMITTED] T2230.009

[GRAPHIC] [TIFF OMITTED] T2230.010

STATEMENT OF THE HONORABLE DONNA M. CHRISTENSEN, A DELEGATE TO 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman.
    As you said, Mr. Chairman, we are going to receive 
testimony on two bills. I would like to welcome those who will 
testify with us this morning. The first measure authorizes 
American Friends of the Czech Republic to establish a memorial 
to Tomas G. Masaryk on a specific parcel of land at 19th and 
Pennsylvania Avenue here in Washington, D.C. The legislation 
states that the memorial is to be established in accordance 
with the Commemorative Works Act and that it shall be funded 
privately.
    Mr. Masaryk was a professor of philosophy who became the 
first President of Czechoslovakia and served in that capacity 
until ill health forced his retirement in 1935. Based on his 
public service and writings, which include the Czechoslovakian 
Declaration of Independence, many have referred to Masaryk as 
the Father of Democratic Czechoslovakia.
    Clearly, Mr. Masaryk is an important and compelling figure 
not only in Czech history, but in the history of democracy. 
However, in order for the legislation to achieve its own stated 
goal of complying with the Commemorative Works Act, several 
changes may need to be made to the bill. We look forward to 
learning more about the potential improvements of the bill and 
this fascinating individual as well.
    The second bill, H.R. 1384, which is introduced by my 
friend and our colleague on the Subcommittee, Representative 
Tom Udall, would establish the Navajo Long Walk National 
Historic Trail. The proposed trail would commemorate and 
interpret the forced march of members of the Navajo Nation from 
their ancestral homelands, a site in eastern New Mexico in the 
early 1860's. I understand that a study of this proposed trail 
may be necessary and that the witnesses are prepared to discuss 
that issue today.
    So, Mr. Chairman, thank you. I appreciate the attendance of 
our witnesses here this morning, and I look forward to working 
with you and the sponsors to work out the details of these 
bills.
    Mr. Hefley. Thank you, Mrs. Christensen.
    Mr. Hefley. And Mr. Gilman was to be on the first panel. I 
understand he is on his way, but Mr. Udall, would you like to 
say a few words about your bill to start things off?

   STATEMENT OF THE HONORABLE TOM UDALL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Udall of New Mexico. I would love to, Chairman Hefley.
    Mr. Chairman, thank you very much for holding this hearing, 
and I know you noted that the Park Service has some issues with 
the bill I have introduced, and I look forward to working with 
you on those issues to make sure that we can move this 
legislation forward.
    The Congressional District that I represent is one of the 
more majestic ones in this country. It is a scenic land with a 
unique civilization that is part Indian, part Spanish and part 
Anglo American. As such, the history of the region speaks to 
some of the most proud as well as tragic events in our Nation's 
history. Among the most tragic is the Long Walk of the Navajo 
people. In 1863, the Navajo were forced by gunpoint from their 
ancestral lands to walk roughly 350 miles from northeastern 
Arizona and northwest New Mexico to the Bosque Redondo in 
eastern New Mexico.
    More than 150 years ago, the United States engaged in a 
military campaign against the Navajo people. The campaign was 
an extension of the U.S. policy to remove the Navajo from their 
homeland in the hopes of quashing their rebellion against what 
was an unwelcome encroachment from the U.S. Government. Colonel 
Kit Carson then engaged his men in an aggressive campaign to 
round up and remove the Navajo from their native area. The 
campaign was not a humane one, and the Navajo were forced to 
surrender themselves to Carson's forces in 1863.
    The U.S. then chose Bosque Redondo, a very remote and 
desolate site near Fort Sumner, New Mexico, as the place where 
the Navajo would be confined and forced to live. More than 
8,000 Navajo were forced to trek over 350 miles under military 
escort from portions of Canyon de Chelley, Arizona; 
Albuquerque, Canyon Blanco, Anton Chico and Canyon Piedra 
Pintado, New Mexico, to Bosque Redondo.
    Upon being imprisoned at Fort Sumner, the Navajo faced 
starvation, malnutrition due to inadequate and poor quality 
food rations, disease caused by unclean water, and exposure to 
inadequate provisions of clothing and shelter unsuitable to 
meet the extreme weather conditions of the area. Thousands 
perished under these deplorable conditions.
    After roughly four years of imprisonment, President Ulysses 
S. Grant issued an Executive Order terminating the military's 
role and entered into treaty negotiations with the Navajo. When 
an agreement was made, the Navajo were then allowed to return 
home in the same way as they had arrived, on foot. Thus the 
Navajo had spent nearly four years as prisoners from their own 
land.
    Mr. Chairman, this period in our Nation's history is a 
tragic one. Our relationship with the tribes have come a long 
way since that time, but there is still more that can be done 
to strengthen their relationship. For this reason, I am hopeful 
the National Park Service, in conducting this feasibility 
study, will engage in a proper amount of collaboration and 
consultation with the Navajo Nation. I am grateful to the 
Committee for hearing testimony on this bill and hope that once 
the study is conducted, we can enter into the next step of 
designating the Long Walk as a national historic trail.
    The Long Walk remains one of the more tragic events in our 
Nation's history, yet today very few Americans realize the 
atrocities that were committed against our Native peoples. By 
taking these necessary steps to declare this area a national 
historic trail, we will commemorate the people who made the 
treacherous Long Walk and were interned at Bosque Redondo. The 
over 8,000 Navajo made the Long Walk, and among those, 3,000 
who perished should be remembered. I am hopeful that 
designating the Long Walk as an historic trail will prove to be 
a significant step in commemorating their memories.
    Thank you, Mr. Chairman, for recognizing the importance of 
this issue. I look forward to hearing the testimony from Mr. 
Arvin Trujillo, who will testify for the Navajo Nation. Mr. 
Trujillo is the Director of the Division of Natural Resources 
for the Navajo Nation, and thank you very much, Mr. Chairman. 
And I see Mr. Gilman is here.
    Mr. Hefley. Thank you, Mr. Udall.
    [The prepared statemnt of Mr. Udall follows:]

Statement of The Honorable Tom Udall, a Representative in Congress from 
                        the State of New Mexico

    Mr. Chairman, fellow members of the Subcommittee on National parks.
    The Congressional District that I represent is one of the most 
majestic regions in this country. It is a scenic land with a unique 
civilization that is part Indian, part Spanish and part Anglo-American. 
As such, the history of the region speaks to some of the most proud as 
well as tragic events in our Nations history. Amongst the most tragic 
is the Long Walk of the Navajo people. In 1863 the Navajo were forced 
by gunpoint from their ancestral lands, to walk roughly 350 miles from 
Northeastern Arizona and northwest New Mexico, to the Bosque Redondo in 
eastern New Mexico.
    More than 150 years ago, the United States engaged in a military 
campaign against the Navajo people. The campaign was an extension of 
U.S. policy to remove the Navajo from their homeland in hopes of 
quashing their rebellion against what was an unwelcome encroachment 
from the U.S. government. Col. Kit Carson then engaged his men in an 
aggressive campaign to ``round up'' and remove the Navajo from their 
native area. The campaign was not a humane one, and the Navajo were 
forced to surrender themselves to Carson's forces in 1863.
    The U.S. then chose Bosque Redondo a very remote and desolate site 
near Ft. Sumner, New Mexico, as the place where the Navajo would be 
confined and forced to live. More than 8,000 Navajo were then forced to 
trek over 350 miles under military escort from portions of Canyon de 
Chelley (SHAY), AZ., Albuquerque, Canyon Blanco, Anton Chico, and 
Canyon Piedra Pintado, NM, to Bosque Redondo, NM. Upon being imprisoned 
at Ft. Sumner, the Navajo faced starvation, malnutrition due to 
inadequate and poor quality food rations, disease caused by unclean 
water, and exposure due to inadequate provisions of clothing and 
shelter unsuitable to meet the extreme weather conditions of the area. 
Thousands perished under these deplorable conditions.
    After roughly four years of imprisonment President Ulysses S. Grant 
issued an executive order terminating the military's role and entered 
into treaty negotiations with the Navajo. When an agreement was made, 
the Navajo were then allowed to return home in the same way as they had 
arrived, on foot. Thus, the Navajo had spent nearly four years as 
prisoners from their own land.
    Mr. Chairman, this period in our nations history is a tragic one. 
Our relationship with the tribes have come a long way since that time, 
but there is still more that can be done to strengthen the 
relationship. For this reason I am hopeful that the National Park 
Service in conducting this feasability study, will engage in a proper 
amount of collaboration and consultation with the Navajo Nation.
    I am grateful to the committee for hearing testimony on this bill 
and hope that once the feasibility study is conducted, we can enter 
into the next step of designating the Long Walk as a national historic 
trail. The Long Walk remains one of the most tragic events in our 
Nations history, yet today very few Americans realize the atrocities 
that were committed against our native peoples. By taking these 
necessary steps to declare this area a national historic trail, we will 
commemorate the people who made the treacherous Long Walk and were 
interned at Bosque Redondo. The over eight thousand Navajo who made the 
Long Walk, and among those the three thousand who perished, should be 
remembered. I am hopeful that designating the Long Walk as a historic 
trail, will prove to be a significant step in commemorating their 
memories.
    Thank you Mr. Chairman, for recognizing the importance of this 
issue. I look forward to hearing the testimony from Mr. Arvin Trujillo 
who will testify for the Navajo Nation. Mr. Trujillo is Director of the 
division of Natural resources for the Navajo Nation. Thank you Mr. 
Chairman.
                                 ______
                                 
    Mr. Hefley. Mr. Gilman, we are delighted to have you here 
today, and--as our first panel, and we will turn the time over 
to you to talk about your memorial.

STATEMENT OF THE HONORABLE BENJAMIN GILMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Gilman. Well, thank you, Mr. Chairman, and I want to 
thank our distinguished members of the Committee for taking the 
time to consider this legislation regarding H.R. 1161. That 
measure authorizes the American Friends of the Czech Republic 
to establish a memorial to honor Tomas Garrigue Masaryk, the 
first President of Czechoslovakia.
    I am pleased to be able to sponsor that measure which seeks 
to honor one of the foremost advocates of democracy, of freedom 
and humanity of our time. Tomas Masaryk is renowned throughout 
the world for his advocacy of democracy.
    Having visited the Czech Republic on a number of occasions, 
I have been able to observe firsthand the democratic plan 
initially laid out by President Masaryk nearly 100 years ago 
being reinstated into a society which has suffered so long 
under Communist rule, and I am proud to champion that effort.
    We are joined in the audience today by officials of the 
Embassy of the Czech Republic, and I am certain these 
distinguished officials can attest to the success of the 
resurgence of democracy in their homeland, which was initiated 
by Mr. Masaryk.
    The memorial statue to Tomas Masaryk will immortalize a 
good friend of our Nation and a pioneer for democracy 
throughout the world. A steadfast disciple of Jefferson, of 
Lincoln and Wilson, Masaryk was a student of the American 
foundations of freedom and equality and principles of a 
democratic society.
    I understand from my discussions with representatives of 
the American Friends of the Czech Republic, who have so nobly 
undertaken this effort on behalf of the Czech Republic, that 
before this legislation can be marked up, certainly refinements 
will be necessary for the bill to conform with the 
Commemorative Works Act. I completely support those changes, 
which will be brought to your attention shortly, and urge the 
Subcommittee to continue with their consideration of this bill 
by providing an opportunity for it to be marked up in the near 
future.
    Once again, I want to thank you, Mr. Chairman and members 
of the Committee, for holding this hearing, and I urge the 
Subcommittee to approve the bill and report it favorably to the 
full Committee.
    Mr. Hefley. Thank you.
    [The prepared statement of Mr. Gilman follows:]

    Statement of The Honorable Benjamin Gilman, a Representative in 
                  Congress from the State of New York

    Chairman Hefley, Ranking Member Christensen:
    Thank you for the opportunity to participate in this hearing this 
morning regarding H.R. 1161 which authorizes the American Friends of 
the Czech Republic to establish a memorial to honor Tomas Garrigue 
Masaryk, the first President of Czechlovokia.
    As you know, I am the sponsor of H.R. 1161, which seeks to honor 
one of the foremost promoters of democracy, freedom, and humanity of 
our time, Tomas Garrigue Masaryk.
    Having visited the Czech Republic and seen first hand the 
democratic plan originally laid out by Tomas Masaryk nearly 100 years 
ago being reinstated into a society which had suffered so long under 
communist rule, I am proud to champion this effort. We are joined in 
the audience today by officials of the Embassy of the Czech Republic. I 
am certain that these distinguished officials can attest to the success 
of this resurgence of democracy in their homeland which originated with 
Mr. Masaryk.
    The memorial statue to Tomas Masaryk will immortalize a good friend 
of the United States and a pioneer for world democracy. A steadfast 
disciple of Jefferson, Lincoln, and Wilson, Masaryk was a student of 
the American foundations of freedom and equality and principles of a 
democratic society.
    I understand from my discussions with representatives of the 
American Friends of the Czech Republic, who have so nobly undertaken 
this effort on behalf of the Czech Republic, that before this 
legislation can be marked-up, certain refinements will be necessary for 
the bill to conform with Commemorative Works Act. I completely support 
the changes which will be brought to your attention shortly and urge 
the subcommittee to continue with their consideration of this bill by 
providing an opportunity for it to be marked up in the very near 
future.
    Once again, I want to thank the subcommittee for holding this 
hearing. I urge the subcommittee to approve H.R. 1161 and report it 
favorably to the full committee.
                                 ______
                                 
    Mr. Hefley. Ben, can you help me? What is our history of 
having memorials to other nations' leaders in the National 
Capital area here? I am sure there is some history of that. In 
fact, we have a painting on the wall of the House of 
Representatives of a foreign leader. But what kind of history 
do we have of putting up memorials in the Capital for that?
    Mr. Gilman. Just this weekend at West Point, at our U.S. 
military academy, I attended a commemorative ceremony to 
General Thaddeus Kosciusko, and that is on Federal lands. There 
are some memorials--and I have just been handed a list. Jose 
Artigas, there is a monument for him at 18th Street and 
Constitution Avenue. He led Uruguay in independence in 1811. 
And that was presented by the Republic of Uruguay. Simon 
Bolivar has a monument also at 18th Street and Virginia Avenue, 
and of course we all know him as a liberator of South America, 
and that was a gift from the Venezuelan Government.
    Then there is a statue--a monument for Mahatma Gandhi at 
Massachusetts Avenue at Q Street and 21st Street. And, of 
course, he was the Indian leader for independence, and that was 
presented by the Government of India. There is a statue to 
Benito Pablo Juarez at Virginia Avenue and New Hampshire 
Avenue. He is known as the Mexican George Washington, and we 
just celebrated mayo cinco in the Capitol, and that was erected 
by the Mexican Government. And then the last one is General 
Jose de San Martin, founder of Argentine independence, at 
Virginia Avenue and 20th Street, and that was a gift from the 
citizens of Argentina.
    Mr. Hefley. So your proposal would not be breaking new 
ground. There is self-precedence for it?
    Mr. Gilman. By no means. There are some great men who have 
been immortalized by these monuments, and I hope we could add 
Mr. Masaryk's statue to that list of wonderful people.
    Mr. Hefley. Mrs. Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman.
    I just wanted to welcome Chairman Gilman to the 
Subcommittee. I remember doing the memorial or the monument to 
Mr. Gandhi of India, and I think as long as it complies with 
the Commemorative Works Act, and it is a gift of the country 
and will be maintained privately, I think those are the 
requirements.
    We look forward to working with you on this bill, and thank 
you again, Chairman Gilman, for coming.
    Mr. Gilman. And the same will apply, Mr. Chairman. This 
will be a gift of the Czech Republic, Friends of Czech 
Republic, and they will work out a maintenance program as well.
    Mr. Hefley. Well, I think we are happy to do it if the 
Czech Republic will do a statue of you over there. Can you 
assure us of that?
    Mr. Gilman. I would hope not. I think we have got enough 
statues of wonderful people over there.
    Mr. Hefley. Any other questions of members of the 
Committee?
    Well, then, Ben, thank you very much.
    Mr. Gilman. Thank you very much, Mr. Chairman, and I thank 
the Committee members for your indulgence.
    Mr. Hefley. Our second panel will be Mr. John Parsons, 
Associate Regional Director of Lands, Planning and Resources, 
with the National Capital Region, the National Park Service. If 
you would join us.
    Mr. Parsons, if you can, keep your testimony to about 5 
minutes so we have time for questions. That would be helpful.

  STATEMENT OF JOHN J. PARSONS, ASSOCIATE REGIONAL DIRECTOR, 
   LANDS, PLANNING, AND RESOURCES, NATIONAL CAPITAL REGION, 
                     NATIONAL PARK SERVICE

    Mr. Parsons. All right, Mr. Chairman. I would be happy to 
do that.
    Welcome, and thank you for this opportunity to present the 
Department of Interior's testimony on H.R. 1161 to authorize 
the establishment of a memorial to Tomas Masaryk in the 
District of Columbia.
    The Department supports the establishment of a memorial to 
Tomas G. Masaryk on Federal lands in the District of Columbia 
or its environs, but only if H.R. 1161 is amended to bring this 
proposal into conformance with the Commemorative Works Act.
    On April 26th, 2001, representatives of the Czech Republic 
met with the National Capital Memorial Commission to share the 
intent of that government to make a gift of this memorial to 
the people of the United States. The American Friends of the 
Czech Republic is one of the several groups based in the United 
States who have joined to participate in this effort. Enactment 
of an amendment to H.R. 1161, as Mr. Gilman mentioned just 
previously, would provide the mechanism by which the acceptance 
of this gift could occur.
    Tomas Masaryk, the first President of Czechoslovakia, 
stands in history as the best embodiment of the close ties 
between the United States and Czechoslovakia. He knew America 
from his own experience over four decades of repeated trips as 
a philosopher, scholar and teacher. He married a young woman 
from Brooklyn, New York, Charlotte Garrigue, and carried her 
name as his own. Masaryk's relationship with America is 
illustrated by his writings, speeches and articles contained in 
the Library of Congress.
    His personal relationships with President Woodrow Wilson 
and the Secretary of State Robert Lansing led to the 
recognition by the United States of a free Czechoslovakia in 
1918. Inspired by the writings of Jefferson and the values of 
Lincoln, Masaryk wrote the Czechoslovakian Declaration of 
Independence from Austria that was signed in Philadelphia and 
issued in Washington on October 18th, 1918, where he was 
declared President of Czechoslovakia. His view of government 
served as a blueprint for the creation of new nation-states 
after the First World War, and he stands as a symbol of the 
politics of morality, a world leader and a steadfast friend of 
the United States.
    The National Capital Memorial Commission met to review this 
proposal, and the Commission unanimously endorsed it as a 
memorial gift, with the requirement that legislation conform 
with the Commemorative Works Act, as I mentioned earlier. 
Section 1(b) of the bill directs the placement of this memorial 
on a designated site in the Nation's Capital. We believe this 
language should be deleted, because it precludes public 
participation in site evaluation and approval required by the 
Commemorative Works Act and the various commissions in the 
city. The provision would also prohibit memorial sponsors from 
consideration of any alternative site, absent additional future 
legislation.
    We also recommend language be added to reflect that this 
memorial is a gift of the Government and the people of the 
Czech Republic. The people of the United States have enjoyed 
strong ties and good will with the peoples of foreign nations 
around the globe, and many symbols of this mutual esteem have 
taken the form of commemorative works here in the Nation's 
Capital. A commemorative gift of this nature is not considered 
a traditional commemorative work as defined under section 2(c) 
of the Commemorative Works Act, and this distinction should be 
reflected in the text of the bill.
    We believe language which recognizes the international 
significance of the sincere and gracious intent of the 
Government and people of the Czech Republic would be highly 
appropriate.
    In addition language to clarify that the United States 
Government shall not pay any expenses related to the 
maintenance of the memorial should be added to section 1(d). 
Our support for H.R. 1161 is conditioned on the memorial not 
contributing to the National Parks Service's deferred 
maintenance backlog. We would be glad to work with the 
Committee and Mr. Gilman on drafting appropriate language.
    Mr. Chairman, that concludes my statement, I will be 
pleased to answer any questions that you or other members of 
the Committee may have. I have testimony on the second bill, 
but we might want to take them in sequence. It is up to you, 
Mr. Chairman.
    Mr. Hefley. Why don't you go ahead with your testimony, and 
then we will ask questions on both of them.
    Mr. Parsons. All right, sir.
    Mr. Chairman, and members of the Subcommittee, I thank you 
for the opportunity to appear before you today to present the 
Department's views on H.R. 1384, a bill to amend the National 
Trails System Act to designate the Navajo Long Walk to Bosque 
Redondo as a national historic trail.
    The Department cannot support this legislation as currently 
written. The National Trails System Act requires that a 
suitability and feasibility study be conducted and submitted to 
Congress before the trail can be established, and a study has 
not been completed on this trail. We are pleased, of course, to 
learn from Representative Udall here this morning that he is 
willing to amend H.R. 1384 to reflect that, and I would be 
happy to work with him and the Subcommittee to develop 
alternative language in that regard.
    Although the Department could support H.R. 1384 in concept 
if it were amended to authorize a suitability and feasibility 
study, we will not consider requesting funding for the study in 
this or next fiscal year. Furthermore, in order to better plan 
for the future of our national parks, we believe that such 
study should carefully examine the full life cycle operation 
and maintenance costs that would result from each alternative 
that we consider. We caution that our support of H.R. 1384, if 
amended to authorize a study, does not mean that the Department 
in the future will support designations that may be recommended 
by the study.
    H.R. 1384 would amend the National Trails System Act and 
designate the Navajo Long Walk National Historic Trail. The 
proposed trail would cover a series of routes approximately 350 
to 400 miles long over which members of the Navajo Nation were 
marched by the U.S. Army beginning in 1863, after they were 
forced to leave their traditional homes in northeastern Arizona 
and northwestern New Mexico.
    The story of the Navajo Long Walk came at a time in the 
U.S. history when the military was called upon to solve a 
problem of a clash between cultures. In the 1850's and 1860's, 
more and more Americans were moving west into New Mexico, the 
Navajos' home. Repeated clashes resulted in the decision to 
move the Navajo people away from their ancient homeland to a 
reservation and teach them farming and self-sufficiency. The 
Army destroyed their crops and orchards, starving them into 
submission.
    There were several successive marches of the Navajo through 
the cold winter to the heat of the summer. The aged and infirm 
often died along the way, even though their wagons were 
sometimes provided. Broken and dispirited after their defeat in 
their homeland, the Long Walk was particularly grueling and 
hard on all of the Navajo people, even those who survived. The 
destination of the Long Walk was a reservation at Fort Sumner, 
New Mexico, called Bosque Redondo, which was shared with 
Mescalero Apache people. More than 7,000 to 8,000 Navajo people 
were eventually placed on the reservation. Although seeds were 
provided, and the Navajo planted them immediately, there was 
never any success in growing crops. Due to a lack of timber for 
both shelter and firewood, living conditions were poor. 
Additionally, the Navajo and Mescalero Apache did not get 
along, and by 1866, the Apache had deserted the reservation.
    By 1868, conditions were so bad, that a government 
commission was appointed to investigate the conditions of 
Bosque Redondo. General W.T. Sherman, commanding the Military 
Division of Missouri, ordered the Navajo back to their 
homelands in June of 1868 after a treaty granting them their 
homelands had been signed.
    The Long Walk Trail is located within a corridor that 
includes the National Park System units of Canyon de Chelly 
National Monument in Arizona and Fort Union National Monument 
in New Mexico and the Bureau of Land Management-managed lands 
in New Mexico, including El Malapais National Conservation Area 
and Kasha-Katuwe Tents Rocks National Monument. The route the 
Army followed went from Canyon de Chelly, Arizona, to the south 
of Albuquerque, New Mexico. From there several routes continued 
directly and indirectly to the Bosque Redondo at Fort Sumner on 
the Pecos River.
    The story of the Long Walk is being told in a number of 
ways through the effort of the State of New Mexico and the 
Navajo Nation. For a number of years, the Navajo people have 
made pilgrimages to the Bosque Redondo. Plans are currently 
under way for a memorial and visitors center at Fort Sumner 
State Monument. Legislation that was passed in the 106th 
Congress authorizes funding from the Defense Department to 
match State funds for the establishment and development of the 
memorial and visitors center. The legislation also authorizes 
the National Park Service to work with the Navajo Nation and 
the Mescalero tribe to develop a symposium on the Long Walk and 
a curriculum for New Mexico schools.
    Any further Federal involvement should consider more than 
whether or not the Long Walk has sufficient resources and 
integrity to meet the standards set for establishing national 
historic trails. The study should identify other options that 
best tell a story as well as identify the critical resources of 
that story. But most importantly, any work has to consider the 
concerns, values and wishes of the Native Americans affected by 
these tragic events. Therefore, while a study to determine the 
suitability of national historic trail designation may be an 
important part of preserving the story and sites, any 
authorized study should include sufficient latitude to 
determine if that is indeed the best way to accomplish the 
task. To that end, we are ready to work with Mr. Udall, the 
Secretary of the State of New Mexico, and the Navajo and 
Mescalero people to determine the most appropriate action.
    That completes my testimony. I will be happy to answer any 
questions you or the Subcommittee members may have, Mr. 
Chairman.
    Mr. Hefley. Thank you very much, Mr. Parsons.
    [The prepared statement of Mr. Parsons on H.R. 1161 
follows:]

 Statement of John G. Parsons, Associate Regional Director for Lands, 
Resources and Planning, National Capital Region, National Park Service, 
                       Department of the Interior

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 1161, to authorize the 
establishment of a memorial to Tomas G. Mazaryk in the District of 
Columbia.
    The Department supports the establishment of a memorial to Tomas G. 
Masaryk on Federal lands in the District of Columbia or its environs, 
but only if H.R. 1161 is amended to bring this proposal into 
conformance with the Commemorative Works Act of 1986. On April 26, 
2001, representatives of the Czech Republic met with the National 
Capital Memorial Commission to share the intent of that government to 
make a gift of this memorial to the people of the United States. The 
American Friends of the Czech Republic is one of several groups based 
in the United States who have joined to participate in this effort. 
Enactment of an amended H.R. 1161 would provide the mechanism by which 
the acceptance of this gift could occur.
    Tomas Masaryk, the first president of Czechoslovakia, stands in 
history as the best embodiment of the close ties between the United 
States and Czechoslovakia. He knew America from his own experience over 
four decades of repeated trips as a philosopher, scholar, and teacher. 
He married a young woman from Brooklyn, New York, Charlotte Garrigue, 
and carried her name as his own. Masaryk's relationship with America is 
illustrated by his writings, speeches, and articles contained in the 
Library of Congress. His personal relationships with President Woodrow 
Wilson and Secretary of State Robert Lansing led to the recognition by 
the United States of a free Czechoslovakia in 1918.
    Inspired by the writings of Jefferson and the values of Lincoln, 
Masaryk wrote the Czechoslovakian Declaration of Independence from 
Austria that was signed in Philadelphia and issued in Washington on 
October 18, 1918, where he was declared President of Czechoslovakia. 
His view of government served as a blueprint for the creation of new 
nation states after the First World War and he stands as a symbol of 
the politics of morality, a world leader, and a steadfast friend of the 
United States.
    The National Capital Memorial Commission met to review H.R. 1161 in 
order to advise the Secretary of the Interior and the Congress on this 
matter as is required by the Commemorative Works Act of 1986. The 
commission unanimously endorsed this proposed memorial gift, with the 
requirement that legislation conforms with the Commemorative Works Act.
    Section 1(b) of H.R. 1161 directs the placement of this memorial in 
a designated site in the nation's capital. We believe this language 
should be deleted because it precludes the public participation in site 
evaluation and approval required by the Commemorative Works Act. This 
provision would also prohibit memorial sponsors from the consideration 
of any alternative site absent additional future legislation.
    We also recommend language be added to reflect that this memorial 
is a gift of the government and the people of the Czech Republic. The 
people of the United States have enjoyed strong ties and goodwill with 
the peoples of foreign nations around the globe, and many symbols of 
this mutual esteem have taken the form of commemorative works. A 
commemorative gift of this nature is not considered a traditional 
commemorative work as defined under Section 2(c) of the Commemorative 
Works Act, and this distinction should be reflected in the text of H.R. 
1161. We believe language, which recognizes the international 
significance of the sincere and gracious intent of the government and 
the people of the Czech Republic, would be highly appropriate.
    Finally, language clarifying that the United States Government 
shall not pay any expenses related to the maintenance of the memorial 
should be added to Section 1(d) of the bill. Our support for H.R. 1161 
is conditioned on the memorial not contributing to the National Park 
Service's deferred maintenance backlog. We would be glad to work with 
the committee on drafting appropriate language.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 
    [The prepared statement of Mr. Parsons on H.R. 1384 
follows:]

 Statement of John G. Parsons, Associate Regional Director for Lands, 
    Resources, and Planning, National Capital Region, National Park 
                  Service, Department of the Interior

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department's 
views on H.R. 1384, a bill to amend the National Trails System Act to 
designate the Navajo Long Walk to Bosque Redondo as a national historic 
trail.
    The Department cannot support this legislation as currently 
written. The National Trails System Act, P.L. 90-543, requires that a 
suitability and feasibility study be conducted and submitted to 
Congress before a trail can be established and a study has not been 
completed on the Navajo Long Walk Trail. It is our understanding from 
discussions with staff that language is being developed to amend H.R. 
1384 in order to authorize a suitability and feasibility study. We 
would be happy to work with Representative Udall and the subcommittee 
on alternate language to study the proposed trail, but more importantly 
to determine the best manner in which to preserve and tell this 
important story.
    While the Department could support H.R. 1384 in concept, if it were 
amended to authorize a suitability and feasibility study, we will not 
consider requesting funding for the study in this or the next fiscal 
year. Furthermore, in order to better plan for the future of our 
National Parks, we believe that such studies should carefully examine 
the full life cycle operation and maintenance costs that would result 
from each alternative considered. We caution that our support of H.R. 
1384, if amended to authorize a study, does not mean that the 
Department, in the future, will support designations that may be 
recommended by the study.
    H.R. 1384 would amend the National Trails System Act and designate 
the Navajo Long Walk National Historic Trail. The proposed trail would 
cover a series of routes approximately 350 to 400 miles long over which 
members of the Navajo Nation were marched by the U.S. Army beginning in 
1863 after they were forced to leave their traditional homes in 
northeastern Arizona and northwestern New Mexico.
    The story of the Navajo Long Walk came at a time in U.S. history 
when the military was called upon to solve a problem of a clash between 
cultures. In the 1850's and 60's more and more Americans were moving 
west into New Mexico, the Navajo's home. Repeated clashes resulted in 
the decision to move the Navajo away from their ancient homeland to a 
reservation and teach them farming and self-sufficiency. The army 
destroyed crops and orchards, starving them into submission. There were 
several successive marches of the Navajo through the cold of winter to 
the heat of summer. The aged and infirm often died along the way even 
though wagons were sometimes provided. Broken and dispirited after 
their defeat in their homeland, the Long Walk was particularly grueling 
and hard on all of the Navajo people, even those who survived.
    The destination of the Long Walk was a reservation at Fort Sumner, 
New Mexico, called Bosque Redondo (Round Grove), which was shared with 
Mescalero Apache people. More than 7,000-8,000 Navajo people were 
eventually placed on the reservation. Although seeds were provided and 
the Navajo planted them immediately, there was never any success in 
growing crops. Due to a lack of timber for both shelter and firewood, 
living conditions were poor. Additionally, the Navajo and Mescalero 
Apache did not get along and by 1866 the Apache had deserted the 
reservation. By 1868 conditions were so bad that a government 
commission was appointed to investigate the conditions at Bosque 
Redondo. General W. T. Sherman, commanding the Military Division of the 
Missouri, ordered the Navajo back to their homelands in June of 1868, 
after a treaty granting them their old homelands had been signed.
    The Long Walk Trail is located within a corridor that includes 
National Park System units at Canyon de Chelly National Monument in 
Arizona and Fort Union National Monument in New Mexico and Bureau of 
Land Management (BLM) managed lands in New Mexico including El Malapais 
National Conservation Area and Kasha-Katuwe Tent Rocks National 
Monument. The route the army followed went from Canyon de Chelly, 
Arizona, to south of Albuquerque, New Mexico. From there several routes 
continued directly and indirectly to the Bosque Redondo at Fort Sumner 
on the Pecos River.
    The story of the Long Walk is being told in a number of ways 
through the efforts of the State of New Mexico and the Navajo Nation. 
For a number of years, the Navajo people have made pilgrimages to the 
Bosque Redondo. Plans are currently underway for a memorial and visitor 
center at Fort Sumner State Monument. Legislation that passed in the 
106th Congress (Title II of P.L. 106-511) authorizes funding from the 
Defense Department to match state funds for the establishment and 
development of the memorial and visitor center. The legislation also 
authorizes the National Park Service to work with the Navajo Nation and 
the Mescalero Tribe to develop a symposium on the Long Walk and a 
curriculum for New Mexico schools.
    Any further Federal involvement should consider more than whether 
or not the Long Walk has sufficient resources and integrity to meet the 
standards set for establishing National Historic Trails. A study should 
identify other options that best tell the story as well as identify the 
critical resources to that story. But most importantly, any work has to 
consider the concerns, values and wishes of the Native Americans 
affected by these tragic events.
    Therefore, while a study to determine the suitability of national 
historic trail designation may be an important part of preserving this 
story and sites, any authorized study should include sufficient 
latitude to determine if that is indeed the best way to accomplish the 
task.
    To that end, we are ready to work with Representative Udall, the 
State of New Mexico and the Navajo and Mescalero to determine the most 
appropriate action.
    That completes my testimony. I would be happy to answer any 
questions that you or any of the members of the subcommittee may have.
                                 ______
                                 
    [A letter from the Department of the Interior dated May 4, 
2001 submitted for the record follows:]
[GRAPHIC] [TIFF OMITTED] T2230.001

[GRAPHIC] [TIFF OMITTED] T2230.002

[GRAPHIC] [TIFF OMITTED] T2230.003

    Mr. Hefley. Back to 1161, in your testimony, you pointed 
out two problems with this bill, which, in your view, violate 
the CWA in two respects. Do the administration and the 
Commission support the idea of erecting a statue to Mr. Masaryk 
on Federal land in downtown Washington, D.C.?
    Mr. Parsons. Absolutely, without equivocation.
    Mr. Hefley. Do the administration and the Commission 
support the idea of erecting the statue on the site proposed by 
Mr. Gilman in this bill?
    Mr. Parsons. We would prefer to use the provisions of the 
Commemorative Works Act, which requires the study of various 
alternatives, and then an approval process. In the past, some 
of the legislation for memorials has been site-specific, and we 
have found it troubling that after the act is passed, we find 
what some deem to be a better site, and we have to come back 
here to get an amendment. So we would prefer that it not be 
site-specific.
    Mr. Hefley. It is our understanding the site proposed for 
the statue in the bill is currently maintained by the World 
Bank rather than the National Park Service under a voluntary 
maintenance agreement. Doesn't that mean that the World Bank 
has assumed primary responsibility for the maintenance of the 
park for a 5-year period?
    Mr. Parsons. Yes. I am glad you emphasized a 5-year period. 
We have a number of adopt-a-parks in the city that are on 
temporary agreements that we hope will last in perpetuity, but 
we are never sure of that.
    Mr. Hefley. So the World Bank is responsible for installing 
and maintaining pavement, benches, trash receptacles, plants, 
all of those things?
    Mr. Parsons. Yes, they are, Mr. Chairman.
    Mr. Hefley. Okay. Mrs. Christensen?
    Mrs. Christensen. I think you have asked all my questions, 
Mr. Chairman.
    Mr. Hefley. Mr. Tancredo?
    Mr. Tancredo. Mr. Chairman, I have a quick question. 
Actually it was prompted today not by your testimony or that of 
Mr. Gilman's, but something I heard on the radio on the way 
over here in which a group of citizens participating in some 
sort of commission or other were talking about the over 110 
sites they had identified in the area that are being identified 
for redevelopment around Anacostia, and specifically for--sites 
for Federal national monuments. And I wondered, to what extent 
the--to what extent you would give any credence to that kind of 
input. Do you work with them for that purpose of defining other 
potential sites for monuments? Certainly the Mall is getting 
concerned, and they are concerned, and me, too. And I just 
wondered how that process goes along. Is there a communication 
there? Do you think about that alternative over there, the--.
    Mr. Parsons. Very much so. I will try to make this simple. 
This is a very complicated city to build anything in. Congress 
made it that way, and I think it works, but it is very 
complicated. There are three commissions which Congress has 
established to deal with memorials. The three commissions have 
bound together in a joint task force and have developed the 
memorials master plan, which has 100 to 104 sites in it, that 
has been out for public comment. The reason for that is to 
designate sites that nobody will be surprised about in the 
future; that will reach out into the communities, the 
neighborhoods of this city. It will define specific sites in 
and around the Mall that can and can't be used, and I should 
point out that the site mentioned in this bill is one of those 
sites. We think it will be a very valuable tool for locating 
memorials in the future.
    We build about one memorial a year. Congress authorizes one 
or two, and it takes about 10 years to get the more complicated 
ones to fruition. But I guess we have done enough for a 
century, then, at 100 sites.
    Mr. Tancredo. Thank you.
    Mr. Hefley. Mr. Udall?
    Mr. Udall of New Mexico. Thank you, Mr. Chairman and Mr. 
Parsons. Thank you for your testimony.
    Do you support the intent of H.R. 1384 as long as we follow 
the procedures under Public Law 90-543, and that is the 
National Trails System Act, requiring a feasibility study?
    Mr. Parsons. Absolutely.
    Mr. Udall of New Mexico. And the normal thing you would do, 
Mr. Parsons, in a study is where you have a tribe like the 
Navajo Nation involved, you would consult with them very 
closely in order to find out the best way to tell their story?
    Mr. Parsons. That is exactly right. It is their story.
    Mr. Udall of New Mexico. Thank you.
    I don't have any further questions, Mr. Chairman.
    Mr. Hefley. Ms. McCollum?
    Ms. McCollum. No, thank you, Mr. Chairman.
    Mr. Hefley. Thank you very much, Mr. Parsons, for your 
testimony.
    Mr. Parsons. Thank you.
    Mr. Hefley. And our next panel will be Mr. Milton Cerny, 
President, American Friends of the Czech Republic; Mr. Michael 
Novak, Director of Social and Political Studies, American 
Enterprise Institute; and Mr. Arvin Trujillo, Director, 
Division of Natural Resources for the Navajo Nation. Mr. Cerny, 
why don't we start with you.

 STATEMENT OF MILTON CERNY, PRESIDENT, AMERICAN FRIENDS OF THE 
                CZECH REPUBLIC, WASHINGTON, D.C.

    Mr. Cerny. Thank you, Mr. Chairman. It is a great pleasure 
for me to be here today to talk about the legislation, and I am 
proud to be here with Michael Novak.
    My parents and grandparents, forebears, came from what was 
then the Bohemian lands, or the former Czechoslovakia. Mr. 
Novak's parents came from Slovakia, and we have come together 
here today to talk about this memorial to a man who we knew as 
children from our studies in school, even though we were born 
here in America. His reputation was profound in our community, 
mine in Chicago and his in Pittsburgh. So I thank you again and 
the Committee for hearing us on this matter.
    The American Friends of the Czech Republic is a national 
nonprofit organization that is dedicated to the advancement of 
civil, legal, democratic societies and a free-market economy in 
the Czech Republic. It is a 501(c)(3) public charity. It is an 
educational organization. We were involved in educating the 
Congress about different aspects of the Czech Republic, 
primarily with regard to NATO expansion, trade, commerce, 
education, other issues as this country was emerging from 
communism.
    Foremost on our current agenda today is the passage of this 
legislation, which we believe will honor a champion of liberty, 
promotor of human rights and defender of the democratic 
principles of the United States, Tomas Garrigue Masaryk. This 
effort has received the enthusiastic support of the leaders in 
the Czech Republic, and I believe you all have copies of a 
letter that we received just the other day from President Havel 
supporting this project, indicating that he will put all his 
power behind this project, and placement of the statue of 
President Masaryk in Washington. You also have a letter from 
Ambassador Vondra, who is the official representative of the 
Czech Republic here in Washington, supportive of this gift from 
the Czech people to the United States.
    Mr. Novak will talk about Masaryk. So I will address the 
remainder of my comments to the points that were raised with 
regard to the legislation.
    Mr. Chairman, as you are aware, and as Mr. Parsons has 
indicated, that in accordance with the Commemorative Works Act, 
H.R. 1161 provides for congressional authorization for the 
placement of the memorial. I wanted to thank Mr. Parsons and 
his staff for an excellent discussion that we had with them 
following the time that the legislation was introduced, and in 
which Mr. Parsons discussed with us certain difficulties they 
had with regard to the legislation as currently drafted.
    We believe that Masaryk had a specific and a profound 
impact on the United States, but we also realize that under 
this act, the judgment is not ours where this statue is to be 
placed. It really belongs to the Park Service and the 
commissions that have to make that determination. And I would 
like to address two points with regard to this.
    First, we suggested in the legislation that we thought an 
appropriate place for the statue for consideration was in a 
park on 18th and Pennsylvania Avenue, right across from the 
World Bank. Why do we select that particular site? As 
indicated, we looked at the master plan of potential sites that 
might be available, and we thought this was an ideal site 
because of the fact that Masaryk had lived in what was then the 
Powhatan Hotel on the corner of 18th and Pennsylvania Avenue, 
where he would walk on several occasions to meet with President 
Wilson with Secretary Lansing, with Colonel House and others in 
the drafting of this Declaration of Independence. It has 
historic significance to us, and, I think, to the people who 
would visit that statue, because it stands in front of a 
building today that is reaching out to young nations and to 
groups to show that there is a future.
    As far as the gift, I think that is explained in the two 
letters that you have from the Czech Republic.
    I would like to add one last comment. I returned from the 
Czech Republic last week, where I met with the mayor of Plzen. 
Plzen is a community where U.S. troops stopped at the Second 
World War, after defeating the German army, and then were not 
permitted to go any further. The Russians took over the country 
basically, when a Communist Government was instituted, and for 
50 years this country languished in communism.
    We now have a situation, that we can honor the man who 
brought democracy, liberty and freedom to a people who deserve 
much more and much better. The Czechs are fully supportive, as 
is the city of Prague and, as we can see, the President and the 
Ambassador. So I think the gift will be accomplished, and we 
will receive support from people in the Czech Republic and the 
United States.
    Mr. Hefley. Thank you very much.
    [The prepared statement of Mr. Cerny follows:]

  Statement of Milton Cerny, President, American Friends of the Czech 
                                Republic

    Mr. Chairman, thank you for the opportunity to appear before your 
Subcommittee today in support of H.R. 1161, Rep. Benjamin Gilman's (R-
NY) legislation which would authorize the establishment of a memorial 
to Tomas Garrigue Masaryk in the District of Columbia.
    The American Friends of the Czech Republic is the national non-
profit organization that advances a civil, legal, democratic society 
and a free-market economy in the Czech Republic while strengthening the 
education, cultural, commercial and security partnerships between the 
United States and the Czech Republic. It is a 501(c)(3) public charity 
that has educated our leaders and opinion makers in such areas as NATO 
expansion, trade, culture and Czech heritage.
    Foremost on our current agenda is supporting the passage of 
legislation, which we believe will honor a champion of liberty, 
promoter of human rights, and defender of the democratic principles of 
the United States, Tomas Garrigue Masaryk. This effort has received the 
enthusiastic support of the leaders in the Czech Republic, most 
notably, President Vaclav Havel and the Ambassador to the United 
States, Alexandr Vondra and government and community leaders throughout 
the United States.
    Tomas Garrigue Masaryk, the first President of Czechoslovakia, 
stands in history as the best embodiment of the close ties between the 
United States and Czechoslovakia. A philosopher, scholar and teacher, 
Tomas Garrigue Masaryk accomplished a great deal in the United States. 
During repeated trips he taught in the United States, married a young 
woman from Brooklyn, NY, and developed personal relationships with some 
of the most illustrious American political figures of the time. 
However, all of this pales in comparison to his most notable 
achievement. For six months Masaryk traveled throughout the United 
States writing the Czechoslovak Deceleration of Independence from 
Austria that was signed in Philadelphia and issued here in Washington, 
D.C. on October 18, 1918, where he was declared the President of 
Czechoslovakia.
    I am joined today by Michael Novak of the American Enterprise 
Institute and recent recipient of the Tomas Garrigue Masaryk Medal. Mr. 
Novak will speak in more detail as to Tomas Garrigue Masaryk's 
connection with the United States and his prominent place in history. 
Mr. Chairman, I would like to focus the remainder of my testimony on 
the legislation, which has led to this hearing.
    Although the American Friends of the Czech Republic has served as 
the catalyst for this effort to honor President Masaryk with a Memorial 
in Washington, D.C., we are supported in this endeavor by the Czech 
Republic and by dozens of Czech and Slovak organizations throughout the 
United States. Rep. Benjamin Gilman has championed our cause through 
the introduction of this legislation. I would also like to make the 
subcommittee aware of a counterpart to this legislation, S. 621, 
sponsored by another friend of the Czech community, Sen. Chuck Hagel 
(R-NE) and his cosponsors Senators Richard Lugar (R-IN), Joseph 
Lieberman (D-CT) and Jeff Bingaman (D-NM).
    Mr. Chairman, as you are aware, in accordance with the 
Commemorative Works Act, H.R. 1161 provides congressional authorization 
for the placement of a Memorial to honor Tomas Garrigue Masaryk in 
Washington, D.C. However, at this time we would like to address two 
issues contained in the legislation. Prior to this hearing, 
representing the American Friends, I met with John Parsons and his 
staff at the National Park Service to discuss the bill, reviewing 
Masaryk's significance in history, and outlining our desire to gain the 
support of the National Capital Memorial Commission during this 
undertaking. I would like to thank Mr. Parsons for his willingness to 
work with us on this legislation and his helpful words and advice. On 
April 26, the Commission unanimously voted to support the concept of a 
proposed memorial and we express our appreciation to the Commission for 
this important endorsement.
    A potential site is described in the bill, a park located in front 
of the World Bank on Pennsylvania Avenue. It was our suggestion that 
the site holds a strong connection to President Masaryk's time spent in 
Washington, D.C. and his philosophy of political change. This 
particular park sits only a short walk away from a site that once 
housed the Powhantan Hotel, which served as Masaryk's residence while 
in Washington. We believe that having the World Bank as a backdrop to 
this tribute would also be fitting as this organization seeks to 
support the growth of free and democratic states, including the Czech 
Republic. We also understand that the decision on placement must be 
made by the Park Service in accordance with the Commemorative Works 
Act. We want to assure the Committee of our intention to work with the 
Congress and the Park Service in selecting an appropriate site under 
the Commemorative Works Act. Therefore, Mr. Chairman, if the Committee 
moves forward on consideration of this legislation, at that time we 
will work with you, Rep. Gilman, and staff to present a new version of 
this legislation which does not contain the site specifications.
    Additionally, another aspect of HR 1161 which needs further 
clarification is our intention that the statue be a gift from the Czech 
Republic to the United States. As stated in the present legislation, 
the American Friends of the Czech Republic would be authorized to 
establish this memorial. It has always been our intent to have the 
statue presented as a gift of the Czech Republic to the United States 
and we would remain financially responsible for its placement and 
maintenance. If authorized by Congress, the sculpture will be presented 
as a gift to the American people by the Czech Republic.
    Mr. Chairman, I am very pleased to support these changes. I 
recently returned from the Czech Republic, visiting the cities of 
Pilsen and Prague and received strong support from the mayors of these 
cities for the memorial. We have also received strong support from 
President Vaclav Havel and from communities throughout the Czech 
Republic. Funding will be raised to pay for the sculpture so that the 
people of the Czech Republic can take part in honoring their most 
revered leader. As this process proceeds, Ambassador Vondra and his 
Embassy staff will work with us on coordinating this aspect. In the 
United States, Czech and Slovak community organizations are raising 
funds for a permanent endowment to care for the sculpture and to 
provide an educational fund to teach young Czech students the ideals of 
democracy and free enterprise that were so important to President 
Masaryk and his place in American history. Having the Czech Republic 
present the sculpture will bestow a worthy honor for our ally in world 
affairs. It is our hope that the unveiling of the Masaryk sculpture 
will coincide with a state visit in the spring of 2002 by President 
Vaclav Havel to the United States to meet with President Bush at which 
time a joint unveiling of the sculpture can take place.
    The Czech Republic together with the American Friends of the Czech 
Republic are honored to present this sculpture to the people of the 
United States and the city of Washington and to support the future 
upkeep and maintenance of the memorial so that it does not become a 
burden to U.S. tax payers. As indicated, we also intend to establish a 
living memorial with excess funds raised in support of the Masaryk 
Memorial to educate Czech and American students in the principles for 
which Masaryk stood that form the bedrock foundation for the close ties 
between the United States and the Czech Republic.
    In conclusion Mr. Chairman, honoring Tomas Garrigue Masaryk with a 
memorial in Washington, D.C. would provide a point of focus in the 
understanding of the role that he played in the spread of freedom and 
democracy to other parts of the world. More importantly, it will also 
serve as a reminder to visitors of our nation's capital that the 
foundation and principles that the Untied States is based upon 
transcend language, time, and ethnicity. That the American ideals of 
freedom and democracy ingrained in just one individual can impact 
millions throughout history.
    I would like to thank you for providing this opportunity to appear 
today before your subcommittee and speak in support of H.R. 1611 and I 
am prepared to answer any questions you may have.
                                 ______
                                 
    [Letters submitted for the record by His Excellency Vaclav Havel, 
President of the Czech Republic, and His Excellency Alexandr Vondra, 
Ambassador, The Czech Republic, follow:]
[GRAPHIC] [TIFF OMITTED] T2230.004

[GRAPHIC] [TIFF OMITTED] T2230.005

    Mr. Hefley. Mr. Novak?

 STATEMENT OF MICHAEL NOVAK, GEORGE FREDERICK JEWETT CHAIR IN 
  RELIGION AND PUBLIC POLICY, AMERICAN ENTERPRISE INSTITUTE, 
                        WASHINGTON, D.C.

    Mr. Novak. Thank you, Mr. Chairman.
    I was born in 1933 in Pennsylvania. My grandparents came 
from little villages in Slovakia, then part of the Austro-
Hungarian Empire and now the Republic of Slovakia. Through 
professional work as a scholar and writer, and also part-time 
Ambassador of the United States to the Human Rights Commission 
and to the Committee on Security and Cooperation in Europe, and 
also on the Board of Radio for Europe Radio Liberty, the Board 
which argued for successfully the moving of radios from Munich 
to Prague, I have had a lot to do with the Eastern European 
countries, particularly the Czech and Slovak Republics.
    Since I was very young, having grown up near Pittsburgh, I 
have always had in mind the image of Tomas Masaryk as a great 
symbol of liberty in the American style. He was a bridge 
between our two cultures. George Washington once suggested that 
one day all the other nations of the world would repair to the 
American model and Masaryk is one of the best evidences of 
that. The men whose names were recited earlier, the set of 
heroes from Latin America and India, whose statues grace 
Washington, were moved by the American example. But from a very 
early age, so was Masaryk, and he became a symbol of the fact 
that American ideas, the truths that Thomas Jefferson wrote 
about, are not just American ideas. They belong to all human 
beings by nature.
    Masaryk spent his early years as a philosopher trying to 
sow the roots of liberty and the ideas of limited government 
and consent of the governed in Czech culture, in Czech 
language, in Czech heroes, preparing the way, he thought, for 
the liberation of the Czech peoples from the Austro-Hungarian 
Empire, where they lived in a certain second-rate status and 
sometimes in subjection. It later came about that both the 
Czechs and the Slovaks, through their contributions to the 
Allied effort in World War I, were joined together in one 
independent nation.
    The Declaration of Independence of Czechoslovakia was 
formulated by Masaryk with help from others based on American 
precedents. He had, by this time, already married a young 
American woman from Brooklyn (I suspect in Brooklyn her name 
might have been pronounced Gar-ri-GUE, and maybe by those who 
knew, Gar-rigue, but anyway, even today it is pronounced 
several different ways.) He maintained her name as his middle 
name professionally and personally throughout his life.
    Afterwards, Masaryk served three successive terms as 
President, appointed first and then elected. He helped to 
formulate the new Constitution, again on the American model. He 
produced almost a book a year, even as President, in the last 
years of his life. He charted a path for democracy through the 
extremes of ideological turmoil in Europe raging about him at 
that time, both against the left and against the right. He 
charted a humane, moderate, level-headed course.
    When I was a graduate student at Harvard, David Riesman, 
then, I think, the most famous professor, certainly the most 
loved by the students on campus, recommended to me that I must 
read the works of Masaryk. It is the best guide to an 
understanding of communism available in any language, he said. 
He added that Masaryk was a marvelous articulator of the 
American idea, in terms that were not specifically American but 
drawn from other cultures. Masaryk, better than other 
statesman, showed an ability to articulate difficult ideas, Mr. 
Riesman told me.
    In any case, Masaryk remained a figure emphasizing the 
power of the truth. That was one of his fundamental ideas. 
Politics is based on the idea of truth. We don't always see 
what the truth is, but we certainly have the ability to point 
out falsehoods, and we can find our way if we remain drawn by 
that compass. This idea became extremely important for Vaclav 
Havel and for those who led the Velvet Revolution some 50 years 
after Masaryk's death, and to this day Havel looks back to 
Masaryk as the one who laid the foundation of the Czech and the 
Slovak idea of democracy, and its dependence on the idea of 
truth--which is exactly where Jefferson and Adams placed the 
American idea originally: ``We hold these truths...''
    This is not just an American idea, I want to repeat. It 
belongs to the whole human race. And they saw that, and they 
became a light, Masaryk and now Havel and others, a light 
looking eastward, the spreading of this idea. And that is why 
we Americans only understand ourselves fully when we see the 
power of this idea spreading to others, and see the vindication 
of the claim that all men are created equal. It is not just 
Americans, but all who are created for liberty.
    These ideas have resonance everywhere, and that is why I 
think in the future Masaryk will be even more important than 
today and will be a model for our youngsters to study.
    Thank you very much, Mr. Chairman.
    Mr. Hefley. Thank you very much.
    [The prepared statement of Mr. Novak follows:]

 Statement by Michael Novak, George Frederick Jewett Chair in Religion 
            and Public Policy, American Enterprise Institute

    Mr. Chairman,
    My name is Michael Novak. My grandparents were immigrants from the 
Slovak Republic, which until recently was one of the two states in the 
Federal Republic of Czechoslovakia, whose first president was Tomas 
Garrigue Masaryk (1850-1937). In 1981 and 1982, I served as the United 
States Ambassador to the United Nations Human Rights Commission in 
Geneva; in 1986 I served as U.S. Ambassador to the Commission on 
Security and Cooperation in Europe; and from 1983 to 1993 I served as a 
member of the Board of International Broadcasting, one of those 
responsible for moving the headquarters of Radio Free Europe/Radio 
Liberty from Munich to Prague. Through all these activities and through 
my writings, I have remained quite close to the peoples of Eastern 
Europe. Each summer for the last ten years I have been teaching a 
Summer Institute for students from that region and American students in 
Krakow, Poland, and this summer I will open the first week-long Summer 
Institute on the free society in Bratislava, Slovakia.
    Four years ago, the Slovak government awarded me the highest honor 
they can give to a foreign citizen, and last year President Havel 
conferred upon me the Tomas Garrigue Masaryk Award, the highest award 
the Czech government can bestow on a foreign citizen. Since I was born 
in 1933, just four years before the death of Tomas Garrigue Masaryk, I 
can say that my whole life has been lived in the wake of the love for 
liberty he helped to generate in the land from which my family hails. 
Indeed, when I was at Harvard during the early 1960s, one of the most 
highly esteemed professors on campus, David Riesman, the sociologist, 
told me that I should read deeply in the writings of Masaryk, who had 
written more wisely about Communism, he said, than any other man and 
whose writings on democracy were among the most profound in any 
language. Professor Riesman told me that Masaryk was a political leader 
with the keenest philosophical mind he had ever encountered among 
political leaders.
    There is one more accident of time and place that tied my 
imagination to the life of Masaryk. When Mr. Masaryk came to the United 
States in the early spring of 1918, there was no such nation as 
Czechoslovakia. However, at that time there were more Czechs living in 
Chicago than in any city in the Czech Republic except Prague, and more 
Slovaks living in Pittsburgh, Pennsylvania, than in any city in 
Slovakia. But by the time Masaryk left for Europe in November of that 
year, he had drafted the first joint Declaration of Independence of 
Czechoslovakia from the Austrian empire, presided over the writing of 
its initial Constitution, and become its first President. These 
achievements in America took place mainly in Pittsburgh, Pennsylvania, 
not far from my birthplace in Johnstown; and they were duly impressed 
upon my memory from an early age. From his youth, Masaryk had been a 
champion of American ideas of limited government under a democratic 
republic, with the protection of individual rights and the right of 
association, and of the pluralism and humanistic moral commitments of 
the West. With similar great spirits in Poland and Hungary, he was a 
broadcaster of the ideas of liberty and human rights eastward, to all 
the peoples of Eastern Europe. Among Western leaders, not only in 
France and Britain, but especially in America, he was very highly 
esteemed, not least by President Woodrow Wilson, who from a very early 
period pledged to support the independence of Czechoslovakia.
    While still in his twenties, Masaryk traveled for the first time in 
the United States, and it was here that he married his wife, Charlotte 
Garrigue, from Brooklyn, New York, in 1878. For the rest of his life, 
he carried her name as his own. From early years, his scholarship and 
writings were widely recognized in the United States, and he was 
invited many times to lecture in our major universities, and to visit 
many of our institutions. Long before there was any physical image of 
him in our public squares, he was a fixture in the American imagination 
and spirit of inquiry.
    Masaryk was born in Moravia in 1850, and at the age of 14 was 
apprentice to a blacksmith. In his twenties he studied at the 
University of Vienna, writing his thesis in philosophy on the nature of 
the soul. He first met his American wife while he was working as a 
private tutor in Leipzig, and journeyed to America to marry her here 
the next year.
    In 1887, Masaryk made his first journey to Russia for discussions 
with the great novelist Leo Tolstoy, with whom he continued to meet 
over the next twenty years. In 1891 he was elected to the Parliament in 
Vienna as a member of the Young Czech Party. However, more and more, 
his mind turned to thinking and writing about the nature and destiny of 
Czech culture, and its place in the history of liberty, and so during 
the last five years of the nineteenth century, he published nearly a 
book a year on the moral and religious foundations of the politics of 
his people.
    In the year 1899, a famous trial of a Jewish man accused of 
murdering two Christian girls led to several anti-Semitic 
demonstrations, and prompted Masaryk into public campaigns against 
racial prejudice and especially to fight against flagrant superstitions 
about Jews. On this and other occasions, he came several times to the 
public defense of Jews in central Europe.
    In 1900, Masaryk established what later became the Progressive 
Party in the Czech lands. Just before World War I, he was again elected 
to Parliament for two consecutive periods, but with the outbreak of 
World War I, fled to America. He was condemned in absentia as a traitor 
for leaving in the teeth of the War. Masaryk's earlier writings on 
freedom, the consent of the governed, self-determination, and respect 
for rights made it unavoidable, however, for him to join the Allied 
powers in the fight against Austro-Hungary and Germany.
    In 1917 began one of Masaryk's greatest adventures. He traveled 
extensively through Russia, consolidating the scattered remnants of the 
Czechoslovak army in the months after the Bolshevik Revolution, and 
leading it across nearly the whole country on a legendary march. 
Masaryk had a chance to see what the imposition of Bolshevik power 
meant in the outermost regions of the countryside. Frequently, he 
observed, it meant that the more thuggish elements of society practiced 
violence upon others. Even after Masaryk left for America in 1918, the 
Czechoslovak Legion remained behind in Siberia, controlling the entire 
Siberian Railway until 1920.
    Late in 1918, the revolutionary National Assembly in Prague elected 
Masaryk the first President of the new Federal Republic of 
Czechoslovakia. In nearly the same month, Masaryk's new book, The New 
Europe, offered an outline of what a new free and democratic Europe 
would look like.
    In 1920, Masaryk was again elected President according to the new 
Constitution, and then re-elected again in 1927 and 1934. He was 
obliged to resign from the Presidency for reasons of health in 1935, 
and died not quite two years later in 1937 in central Bohemia. Even 
during his Presidency, he continued to publish books that were widely 
read around the world including, in 1925, The Worldwide Revolution 
(Svetova Revoluce).
    It is hard to think of a figure in all of Europe who wrote so 
broadly of the vivid ideological struggles of the twentieth century, 
and charted his way through them with a clearer vision of liberty, 
limited government, and the democratic republic. The depths of his 
thought and his resistance to extremes, combined with a warm and 
universal sense of humanity, help today to explain the power and the 
beauty of the ``velvet revolution'' of 1989, the career of President V 
clav Havel, and so many other of the great and humanistic Czech and 
Slovak leaders of the last ten years. The passion for truth that 
continued under Soviet domination, and the love of liberty, owes many 
of its intellectual roots to Masaryk.
    Not only because of his marriage to an American woman, but even 
more because of the marriage he made between the most humanistic of 
European traditions and the American discoveries about limited 
government and democratic rights, Masaryk is a figure likely to live in 
the 21st century, and even to become better known. Moreover, his light 
still extends eastward to the other Slav lands and the lands of Asia. 
Meanwhile, the equilibrium he kept and the depth of his commitments 
offer a model to Western Europe and even to our own fellow citizens. He 
refused to be blown too far either to the left or to the right, 
steering his compass by what is true, just, and most profound about the 
human soul--the subject of his philosophic thesis at the University. 
Even before his death in 1935, he had warned Europe about the fate that 
might befall it under the Nazis who came to power only in 1933. He read 
the danger quickly and accurately, but was spared from living through 
it. He was 87 when he died.
    The statue of such a man would fit very well with the other statues 
of this great city, so many of which represent heroes and liberators 
from many nations. (It should be added that a bronze statue of Masaryk 
had been created for a prominent place in the city of Prague, but was 
removed under the occupation first of the Nazis and then of the 
Communists, and was kept in this country for safe keeping down through 
the decades, first in California, later in Iowa.) Not only would a 
statue of Masaryk be at home here in the United States; the original 
one, intended for Prague, has been here for almost fifty years.
    President Washington observed that one day the nations of the world 
would repair to America as a model for what human nature promised their 
own citizens. Tomas Garrigue Masaryk was one of the many, like Don 
Luigi Sturzo of Italy, Konrad Adenauer of Germany, Jean Monnet of 
France, and many others who implanted the ideas of this nation in the 
hearts of other nations. By the power of his own philosophical mind, 
Masaryk deepened some of the ideas he learned from this nation. 
Americans have much to learn from him. This is a man our children 
should be encouraged to study.
    What happened in his country in 1989, as the Berlin Wall came down, 
was one of the great, dramatic events of all history. 1989 is a date 
school children will have to memorize in the future. One of the great 
forerunners of that event, whose history they should know of, is Tomas 
Garrigue Masaryk, and this statue in downtown Washington will issue 
that invitation to many young minds for generations to come.
    Respectfully submitted,
    Michael Novak
    George Frederick Jewett Chair in Religion and Public Policy,
    Author of Taking Glastnost Seriously (1988) and The Spirit of 
Democratic Capitalism (1991)
                                 ______
                                 
    Mr. Hefley. I think we will go ahead and have questions of 
this panel, and then, Mr. Trujillo, we will get to you.
    It is clear to me that if we could have one person to be 
honored in Washington, D.C., from the Czech Republic, that this 
would be the person that you would want honored.
    Mr. Cerny. I would think so. Some people might say Havel 
runs a second, but I think Masaryk generally is so respected 
that he would be the number one person.
    Mr. Hefley. You have some historic reason for this 
particular spot that is in the bill for the memorial, but you 
don't particularly care exactly where it is. Is that true?
    Mr. Cerny. Well, we believe that under the legislation, it 
is really not our final decision to make. We respect the Act 
and we would like very much to work with the committees that 
will have to make that decision. We only suggested this site 
because we thought it might be an appropriate site because of 
its historic significance.
    Mr. Hefley. In front of me here I have a picture of the 
proposed memorial.
    Mr. Cerny. Yes.
    Mr. Hefley. Who approved that sculpture?
    Mr. Cerny. This sculpture is still being discussed and 
considered. It is not final, because we don't know exactly 
where it will be placed and what needs to be done. So we have 
had some initial discussions with different sculptors, 
different types of models, and it ultimately will be a decision 
beyond us. We can only come forward with suggestions.
    Mr. Hefley. Is that going to be a competitive thing among 
sculptors with several people giving you a model, and you 
choose, or--
    Mr. Cerny. The way we have set it up at this point is that 
we have talked to some of the leading sculptors in the Czech 
Republic about what would be appropriate, what type of models 
have come about with regard to Masaryk that have been displayed 
not only there, but all over the world, and we have this one 
example. There are other statues of Masaryk, different periods 
of statuary art, and I think that we will consider a number of 
these before a final decision is made.
    Mr. Hefley. Thank you.
    Mrs. Christensen?
    Mrs. Christensen. I don't have any questions, Mr. Chairman.
    Mr. Hefley. Mr. Tancredo? Mr. Tancredo, a Czech name from 
northern--.
    Mr. Tancredo. Not the last time I checked. Sorry about 
that. You asked for it.
    Good question, Mr. Chairman, except just a comment to Mr. 
Novak there. It must take--and it certainly has come to me in 
this discussion--it has come to my thinking that your 
contributions to the advancement of the power of ideas and the 
ideas that you are so beautifully articulated not just here 
today, of course, but over the many times I have heard you 
speak and had the opportunity to have you come into Colorado at 
the Independence Institute, those ideas and your ability and 
your persuasive ability, I think, stand you in good line for 
the possibility of eventually having another memorial 
somewhere. I don't know where, I don't know in what fashion, 
but I should tell you, Mr. Novak, that you are to be commended, 
and I just want to express to you my sincere appreciation for 
your being here today, but also for the many wonderful things 
that you have done for this country and for the advancement of 
human freedom throughout the world.
    Mr. Novak. Thank you very much.
    Mr. Hefley. Mr. Udall?
    Mr. Udall of New Mexico. No questions, Mr. Chairman.
    Mr. Hefley. Ms. McCollum?
    Ms. McCollum. No thank you, Mr. Chairman.
    Mr. Hefley. Thank you very much.
    Mr. Trujillo.

  STATEMENT OF ARVIN TRUJILLO, DIRECTOR, DIVISION OF NATURAL 
         RESOURCES, NAVAJO NATION, WINDOW ROCK, ARIZONA

    Mr. Trujillo. Thank you, Mr. Chairman, members of the 
Subcommittee. Again, my name is Arvin Trujillo, and I am the 
Executive Director for the Division of Natural Resources for 
the Navajo Nation. Again, I would like to thank the 
Subcommittee.
    I would like to thank Congressman Udall for the amendment 
that is--or the proposal that is before you now, H.R. 1384, the 
Navajo Long Walk National Historic Trails Act. Again, as was 
noted by Congressman Udall, the Navajo people during our 
history were forced from the area that we call the area of the 
four sacred mountains, and during this march down to the 
southern portion of New Mexico, the Navajo people that went and 
experienced this experienced a tremendous amount of hardship, 
experienced a tremendous amount of despair as they made that 
walk, as they moved away from what they considered to be an 
area that their Creator designated for them, and what was told 
in their stories and what was reiterated to their young people 
who became my grandparents and my ancestors.
    What I would like to come to you this morning and ask is 
that you support this effort. This event was a significant 
event in the history of the Navajo people. This event itself, 
though we suffered despair, though we suffered hardship, was 
one of those events that begin to mold and develop us as Navajo 
people. It began to shape our fortitude. It began to shape our 
belief in persevering, knowing that 1 day we would again 
return.
    The Navajo people have a rich and a proud history. These 
accounts that have been presented to you in a study that was 
done are accounts that in some cases were very difficult for 
our older people to talk about.
    Mr. Trujillo. Because, again, these were times that people 
had to experience a tremendous amount of hardship. But it is 
something again that helped molded us, helped develop us into 
who we are today. And it is a way that we as young people, a 
way that even my generations can begin to appreciate who we are 
as Navajo people. In essence, this trailing shouldn't totally 
be viewed as a walk of death and despair, but it should be a 
test amount of a people's will to survive and persevere, and 
again, to grow into a great Nation.
    So I would urge the Committee and Mr. Chairman that first 
of all, until the initial research completed by Dr. Ackerly, 
there are four primary cites noted. I would urge the Committee 
that Congress defer to the Navajo Nation the ability to 
determine which route should be designated as the historical 
trail. And this, in working with the National Park Service, we 
would also like to ask that, again, we stress that the National 
Park Service should consult with the Navajo Nation as we move 
forward in the development of this historic trail. And that any 
interpretive material, such as brochure trail markers, scenic 
off ramps, again, that they consult with us and that we develop 
a picture of our history that not only the Navajo people, but 
the U.S. government can be proud of.
    And I would also urge that the--or the Navajo Nation urges 
Congress to add appropriations authorization language to the 
bill so that the Navajo Nation and the National Park Service be 
able to conduct necessary research, consultation, as well as 
address issues concerning maintenance for such a trail.
    Again, in conclusion, this has been a time and a period 
that many of our people have difficulty still relating to. But 
again, it is a test of Navajo fortitude that remains in the 
shadows of American history and we do not want that to be 
forgotten. It ensures who we are and as we talk about this 
place, Hweeldi, as we call it in Navajo, it is important to our 
people. And it serves as a reminder of the importance of 
cultural preservation and perseverance. And again, we support 
this effort, and we respectfully request your positive approval 
in this, in ratifying this amendment and in helping the Navajo 
people continue with our long and historic history with the 
U.S.
    [The prepared statement of Arvin Trujillo follows:]

 Statement of Arvin Trujillo, Director, Division of Natural Resources, 
                  Navajo Nation, Window Rock, Arizona

    There is really a lot to this story, but I'll tell you just a 
portion of it. The Journey to Fort Sumner began because a terrible war. 
That was what my grandmother told my mother, and she passed the story 
on to me. My mother was probably a young child at that time of the Long 
Walk. There is a place called Dleesh Bii To (White Clay Spring), a 
little way southeast of here. From there on up this way there used to 
be farms. One day as some of the Dine were roasting corn from a pit, 
all of a sudden a loud noise was heard from the director of a place 
called Atch inaa ahi (Points Come Together). The noise resembled 
thunder crashing. Our people were always on the alert, as it was a 
fearful time. Other people sleeping on the hill also heard the noise. 
Then someone yelled from the top of a hill, as men did in those days. 
As the man was yelling, horses hoofs were heard. The Utes were 
approaching fast. They attacked the people who had been sleeping and 
killed a lot of them. Some Dine fled up the hill where, on the very 
top, stood a man named Ats aali (Branch of the Wash) who saw the 
shooting and killing taking place down below. He saw a lot of our 
people killed....
    Yesbah Silversmith who at age 90 still herds sheep near her home in 
Lukachukai, AZ. Her story of escape was handed down by a grandmother.
                              INTRODUCTION
    The Navajo Nation and its people have a rich and proud history. Our 
history recounts the journeys of our ancestors through several 
underworlds, into the present. The Navajo are known as the Ni'hookaa' 
diyin dine'e bila' ashdla'ii-- ``Five Finger Earth Surface Holy 
People,'' the name given to the Navajos by the Holy People at the time 
of their emergence into this world. From time immemorial the lands 
between the four cardinal mountains of Sisnaajin--Blanca Peak, Alamosa, 
Colorado; Tsoodzi --Mount Taylor, Grants, New Mexico; Dok'o'oosliid--
San Francisco Peaks, Flagstaff, Arizona; and Dibe Ntsaa--Hesperus 
Mountains, Durango, Colorado, have been the sacred homeland of the 
Navajo. It is in this world, Ni'hodis's--the Glittering World - that a 
fairly recent historical event challenged the Navajo people's very 
existence within the boundaries of the sacred mountains of Navajoland.
    The Spanish and later Mexican governments, forced themselves into 
the aboriginal lands of the native populations of the Southwest. By the 
mid-1800s, the Navajo people, after approximately three centuries of 
unwelcome encroachment by Europeans and later Americans, were reacting 
to a situation that was tearing away their culture and land base. This 
era is bitterly remembered as a dark page in Navajo history, when the 
United States set out to obliterate Navajo culture, at a place known as 
Hweeldi--Bosque Redondo, or Fort Sumner, NM.
                             THE LONG WALK
    In the mid-1800s, well after the Civil War, enslavement and slave 
trade of Navajo women and children was still actively practiced in the 
Southwest. The slave raids lead by Mexican and American settlers of 
recipical raids retaliation by Navajos against the communities that 
surrounded the Navajo lands.
    From 1849 through 1860 several failed peace negotiations with the 
United States Government lead to a military campaign to subdue the 
Navajos. The Army would not tolerate any humane treatment of Navajo 
people who would not surrender. The United States realized that the 
Navajos in their own land could not be subjugated, and viewed removal 
as the only alternative.
    Beginning early in 1860, the Military posts in Navajo land under 
the leadership of Brigadier General James H. Carleton, set the stage 
for the campaign against the Navajo people. Colonel Christopher Carson, 
known as ``Kit Carson,'' commanded the Army troops that ravished 
through Navajo country ``rounding up'' the Navajos to be removed to a 
foreign land. Almost every Navajo family today has family history 
describing the terrifying destruction and annihilation of the 
determined Army campaign against the Navajos.
    Hweeldi, more than 350 miles from Navajo land was the desolate site 
chosen to confine the Navajo people and force them to live according to 
the foreign laws of the United States Government. Thousands of Navajos 
walked the entire distance to Fort Sumner under the watchful eyes of 
the U.S. Military. Thousands of Navajos endured the trek with severe 
starvation, hunger and attacks from other tribes to vile flat land and 
appalling living conditions which was devastatingly traumatic to the 
Navajo people.
    The Navajos were held as ``prisoners of war'' for four years at 
Fort Sumner. Poor planning, drought conditions, severe winters, and 
continued slave raids took their toll on the already suffering captive 
Navajos. Finally, in the spring of 1868, the worn leaders begged to 
return to the land within the Sacred Mountains. The drive to return to 
their homeland kept the people alive, despite the vast distance to 
where the Navajos were removed. On June 1, 1868, a treaty was drawn up 
that ended this nightmare and allowed the Navajos to walk 350 miles 
back home.
                            RECOMMENDATIONS
    <bullet> LThe Navajo Nation urges Congress to defer to the Navajo 
Nation in determining which route will be designated. There were four 
primary routes that were used United States Military during the Navajo 
removal.
    <bullet> LThe Navajo Nation also recommends that Congress mandate 
that the National Park Service consult with the Navajo Nation in the 
interpretative material such as brochures, trail markers, scenic off-
ramps and the like.
    <bullet> LThe Navajo Nation urges Congress to add appropriations 
authorization language to the bill so that the Navajo Nation and the 
National Park Service are able to conduct the necessary research, 
consultation, and maintenance of the Long Walk Trail.
                               CONCLUSION
    The horrible accounts of this period in Navajo history are not 
openly discussed or willingly shared by Navajo people. This test of 
Navajo fortitude remains in the shadows of American history left to be 
forgotten. The proposed H.R. Bill 1384 ``To amend the National Trails 
System Act to designate the Navajo Long Walk to Bosque Redondo as a 
national historic trail,'' will insure that this page of Navajo and 
American history will be remembered and the Navajos who endured the 
Long Walk and incarceration at Hweeldi are properly honored.
    The Navajo people have a culture unique to the United States 
Southwest. It has sustained the Navajos for countless generations. The 
symbolism imbued in the landscape has created unbreakable ties between 
the land and the people. It is the devotion to the sacred land and the 
enduring culture that has fostered a viable sovereign nation that 
continues to survive and prosper. The strength of Navajo culture and 
its ties to the land have been challenged throughout time and continue 
to be challenged.
    It is the strong culture and sacred landscape that the Navajos 
cherish, and these fundamental values will keep the Navajo Nation and 
its people living between the four cardinal mountains in their sacred 
homeland. The Long Walk serves to remind society of the importance of 
cultural perseverance, and as a national historic trail; Navajo history 
will never be forgotten. Hence, the Navajo Nation and its people 
support H.R. Bill 1384 ``To amend the National Trails System Act to 
designate the Navajo Long Walk to Bosque Redondo as a national historic 
trail,'' and respectfully request immediate legislative action to 
ratify this important page in American history.
                                 ______
                                 
    Mr. Hefley. Thank you. I am going to defer, first of all, 
to Mr. Udall, if you would comment.
    Mr. Udall of New Mexico. Thank you very much, Chairman 
Hefley. First of all let me welcome from traveling here and he 
is also accompanied by Shawn D. Pensoneau and Darryl Begay, who 
are with the Navajo Nation, Washington office. I believe the 
Navajo Nation is one of the few tribes which maintains a very 
effective Washington office, and both of those gentleman are 
also with us here today. Let me also say about Mr. Trujillo, by 
way of introduction and comment, that the Navajo Nation is the 
Nation's largest tribe. And as such, it has developed a very 
sophisticated governmental structure. And if you, for example, 
look at their supreme court and the rulings out of their 
supreme court and their justice system, it is a real marvel of 
a court system adapted to the Navajo ways.
    And so they have done that in the judicial area, and Mr. 
Trujillo has done that in the natural resources area. The 
Navajo Nation has developed a very sophisticated division of 
natural resources, Mr. Trujillo has been a leader on the 
natural resources issue, and we are very fortunate to have him 
here today. Mr. Trujillo, let me first of all, by way of 
consultation, the term that you have used that you want to 
consult with the Park Service on this issue, say that where 
there is more than one route frequently, what is done in the 
designation of these trails is in, and that is what will be 
done in this feasibility study, is work closely with you and 
the different routes can be designated. You don't necessarily 
have to pick one over the other.
    Many times several routes where they diverge are allowed to 
be recognized. So I am going to, as you have suggested, urge 
the Park Service when we end up getting this done and in place, 
to consult with you on a very intensive basis to make sure that 
is done. At the beginning--and then let me just make a comment 
too, you did not have the opportunity to read all of your 
testimony, but at the beginning of your testimony is the story 
of a 90-year-old Navajo woman who lives in Lukachukai, Arizona.
    Her name is Yesbah Silversmith and she has a tale that she 
has passed down, which was passed down through the generations 
about the Long Walk and that experience. And maybe you could 
talk just amongst bit about that oral tradition. Is it 
something that probably most Navajo's today, although they are 
150 years away from this incident, have heard from their 
grandparents and parents about what the experience was and 
maybe you could share some of that with us.
    Mr. Trujillo. Thank you, Congressman. Yes, we have a very 
strong oral tradition. I have been a part of that as I grew up. 
The way the Navajo begin to relate their stories is they have a 
tradition, especially during the winter months, you know, we 
see the four seasons in the Colorado plato area. Within the 
winter months, we go in and we can develop fires in our hogans 
or wherever we are living. We have different games that help 
entertain us in the evening. But then the elders or the older 
people will come in and then tell stories, and those stories 
will relate not only to what has happened historically to the 
people, but also they are stories about character; they are 
stories that help develop the young people.
    But in terms of the Long Walk, there are many families and 
we have different clan systems, and there are clans, and each 
clan is a family unit unto itself. And each of them relate 
their stories differently. But all of them come back to central 
themes as to what happened during that period, what happened 
not only during the walk, but during the incarceration down in 
Fort Sumner.
    And most importantly are the stories when they came back, 
when they saw the mountains. The song that they sang coming 
back, those are just as important as the despair they felt when 
they were leaving the sacred areas.
    So yes, the oral tradition is very strong. And there is 
also a packet in there that talks about the research that was 
done by Dr. Ackerly. He relates different aspects, some of 
those stories, by different people that were given.
    Mr. Udall of New Mexico. Mr. Trujillo. Thank you very much 
for your testimony today and Mr. Chairman, I would also like to 
recognize my original co-sponsor on this legislation, Chris 
Cannon from southern Utah. Representative Cannon has a portion 
of the Navajo Nation in his district. As we all know, the 
Navajo Nation is in Arizona, New Mexico and a part of southern 
Utah, and so Chris Cannon, who is unable to be with us here 
today but is a supporter of this legislation, and I know will 
be helping us out with this.
    So with that, thank you very much, Mr. Chairman.
    Mr. Hefley. Thank you. Mr. Trujillo, we are talking here in 
this bill about designating the trail. But also the Park 
Service talked about wanting to talk with the Navajo Nation 
regarding what is the best way to commemorate this experience. 
They have no objection to commemorating the experience. Are you 
convinced that the trail designation is the best way, or would 
some kind of a memorial be the best way, or in the study if we 
do a study of this, would you be open to considering, or would 
you encourage considering a variety of ways of commemorating 
this, or are you absolutely convinced that a trail designation 
is the best way.
    Mr. Trujillo. Thank you, Mr. Chairman. With that, what I am 
looking basically is we would go through the feasibility study 
with the Park Service and receive what would be the best way. 
But from what I have looked at and what we are trying to 
develop, along with the memorial and the visitors center, and 
what we are trying to do down in the Fort Sumner area, we are 
also focused on the trail itself, because it is something that 
the people can begin to see and begin to visualize where our 
ancestors actually walked, where they traveled, what they had 
to experience as they had to make this trek, not only down to 
the Fort Sumner area, but back home again.
    So again, that is why we feel it important that we have a 
series of markers that would designate those areas that our 
people had to travel through during this period in our history.
    Mr. Hefley. Okay. Thank you.
    Mrs. Christensen.
    Mrs. Christensen. I don't have any questions. I am very 
interested in working with your representative in making sure 
that this is developed in the way we would like to see it 
developed.
    Mr. Trujillo. Thank you.
    Mr. Hefley. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. I also would like 
very much to see the study take place and to preserve this part 
of our total American history. And the best form of history 
even though this has a bias, is the primary source. And the 
Navajo people's primary source was the tradition of song. So I 
feel very comfortable in using them as a source in the Park 
Service and the other studies that have been done to use that 
for documentation and I thank you for coming.
    Mr. Trujillo. Thank you.
    Mr. Hefley. Mr. Udall, I appreciate you bringing this to 
our attention. I have done quite a considerable study on the 
Indians of the southwest, particularly the Apache tribes and 
somewhat the Navajo, and yet I was not real familiar with this 
particular march. I appreciate you bringing this to our 
attention. Fort Sumner to me was the Lincoln County war and 
Billy the Kid, and so I think if I am ignorant about a very 
significant piece of our Nation's history, and the Navajo 
nation's history, then maybe others are too.
    And so we appreciate you bringing this to our attention. 
And if it is successful and is designated, then it would bring 
it to the attention of the American people who are fascinated 
by the place you live anyway. And this would be in addition to 
that. Thank you Mr. Trujillo. We appreciate you coming all the 
way from Arizona to be with us on this.
    Mr. Trujillo. Thank you. And, Mr. Chairman, if you would 
like, we could also provide you with some oral history some 
oral stories that we do have available concerning the Long Walk 
and other studies that the Navajo have done, too, for your 
collection and for your pleasure.
    Mr. Hefley. We would appreciate that. You know, this is not 
a pretty part of our Nation's history in many respects. The 
American government did some things they should not do. The 
Indian nations did some things they should not have done. There 
were atrocities committed on both sides. It is not something 
that a lot of us are real proud of, but it is something that we 
should remember. So this might be a way to commemorate at least 
one portion of it.
    Thank you very much.
    Mr. Trujillo. Thank you.
    Mr. Hefley. Thank you, Mr. Udall. If there are no other 
questions or discussion, the Committee stands adjourned.
    [Whereupon, at 11:14 a.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
